PROOF OF SERVICE
No.
IN THE SUPREME COURT OF THE UNITED STATES
Joseph Constant
Petitioner
v.
DTE Electric company, aka DTE Energy, aka Detroit Edison
Company, aka DTE; Leland Prince, Shalina D. Kumar,
Michael David Warren Jr., Deborah A. Servitto, James M
Hammond, Cheryl A Matthews, Rae Lee Chabot, Karen M
Ft Hood, Jane M Beckering, Nanci J Grant
Respondents.
I, Joseph Constant do swear or declare that on this date, 8/31/2021, as
required by Supreme Court Rule 29,1 have served the enclosed PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3
calendar days.
The names and addresses of those served are as followsMr. David N. Asmar
(Attorney for Shalina D Kumar, Cheryl A Matthews, Michael David Warren,
. Rae Lee Chabot, Nanci J Grant)
Oakland County Corporation Counsel
1200 N. Telegraph Rd, Bldg. 14 East, Dept. 419
Pontiac, MI 48341-0419
Mr. Lincoln Glen Herweyer
(Attorney for DTE Electric company, Leland Prince, James M Hammond)
35054 Twenty-three Mile Road, Suite 115
New Baltimore, MI 48047

1

Ms. Heather S. Meingast
(Attorney for Deborah Servitto. Karen M Fort Hood, Jane M Beckering)
MI Dept of Attorney General, Appellate Division
P.O. Box 30736
Lansing, MI 48909
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 31, 2021

Joseph Constant
Pro Se Petitioner
49 Highland Drive
Bloomfield Hills MI 48302-0355
Tel: 248*599*2680

2

